     Office of Inspector General
     Evaluation Report




GOVERNMENT INFORMATION

  SECURITY REFORM ACT



      STATUS OF EPA’s

 COMPUTER SECURITY PROGRAM


    Audit Report Number: 2002-S-00017


           September 16, 2002
Inspector General Division   Information Technology Audits
 Conducting the Evaluation     Division, Washington, D.C.

Regions Covered              Agency-wide

Program Office Involved      Office of Environmental Information

Team Members                 James Rothwell
                             Anita Mooney
                             Chuck Dade
                             Rudy Brevard
                             Debbie Hunter
                             Teresa Richardson
                             Michael Young
                             Neven Morcos
                             Carolyn Bowers
                     UlliTEO STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WAStiiNCTON. D.C. 20460




                                            SEP 16 <002
l!.II!:MORMDUM

SUBJE.C T: 	 Government tnfonnation Security Retbrm :\ct: Status or
             I!PA 's Contputcr .Security Pn.)gram
                 Report No. 2002· S-00017

TO: 	            Chri"ine 1 odd \Vl>itman
                 Administrator



        Auacbcd is our final Jq~Urt ~ntillc:d G(llv:mmcnt Information S~rily Reform Act: Statu:.
r;fi:.'PA 's Computer s~cwriry Program. We pcrfom1cci this evaluation pursul:Ult to the Fiscal2001
Ocfense Aurhori:r.ation Act (PubJic Law 106-398)> i11cluding. TltJc X. subtitle G, ~'(io.,umnenl
Tnf<Jrmatiun St'.<'.urity Rcfonn At' (the Ac'i). Om 6bjct.ti\le~ v.;ere to provide au in~eper.dc:.ut
evalui.ition oftbe Agency's information security program and pl'acticcs. and lO d~termine \\·hei11er
it ha.•:; taken apprt1priatc concctivc actions jJt response to t1le Unix and 1\o\·c ll reoonlme,ndalions
pr01.;id~   hy the Gcmcral Accouming Office (QAO!Ali\·10-00..215, Fcmciam~ntul WeaJma.rses
Place EPA Dato am/ Oper£~ri(}fL.:c at Rrsk).

     The Office of Management and Budget (OM'H) is-s ued ~pecitic r~port ing inslruL<liolls to
CJ)~mc agencies could provide tesults in a consistent (nnn aud f()m)al. As !'\JGh. c~c,;b ofthe
numbcl'e\1 topks shown in the report relate~ to a :-:pr.ciJic agency responsibility out!ined in the AC·t
or 0~ CiH;ular A-ll, "'Planning. Hudgcting, and Acqut~ltkm <If Ca~"'i1al AS6cts.. ,.

        We perfonned li~1d work hom Julle: 5, 1()0?. :hr...·••all July 30,2002, and followed g~.neruJ
):..t;mdan:ls for conrlucrins audits, as jssued by the Comrtrolh:.r G~llt"Jal u( the Uu.ii<Xl St1:1tc~. We
conducted our r~vie\\· primarily at the OIJicc of Environmcnhtl tnfonnation. Joc:atcd at J::PA
He.adquarteJs h1 WaslUngton, D.C. The cvalu::nit>n fcocuscd on rcsp<>nding to questions posod by
QMB. W-e act:olnp\\;;Jhcd this by conduct\ng inttrview'5 W\th ::appropria1e ,\gcncy personnel and.
where possjbJc. verifying their responses by anaJ)'zing supponing documentation.

     Jn aec.l)rdmlce wilh 1t1e OMB reporting_in.stntc.tions. I 3Jll forwarding this repon to you for
:;uhmissicn, aJonr. with the Ageney~s required info rrnatiun, to the Director. OMD.
                                                      2




      . .Shtmlil ~tour s.tatl'h:~ve any questions, p!6as;e t\"!ve Chem ecrtt~¢1 Pal Ilii ~ Dir~ctor, Busir.cM
Sysu:ms. at (202) 566·0894.



                                                          -l.:....,~ L -1,...- C,_
                                                           Nikki L. Tinsley             {)

Attachment
ee:    Kimb~rly   T. ~elson, Chiefln((lnn.alion Q{{i~cr
         GOVERNMENT INFORMATION SECURITY REFORM ACT:

          STATUS OF EPA’S COMPUTER SECURITY PROGRAM


                                  Audit Report No. 2002-S-00017

Question A.1	   Identify the agency’s total security funding as found in the agency’s FY02 budget request, FY02
                budget enacted, and the President’s FY03 budget. This should include a breakdown of security
                costs by each major operating division or bureau and include critical infrastructure protection
                costs that apply to the protection of government operations and assets. Do not include funding
                for critical infrastructure protection pertaining to lead agency responsibilities such as outreach
                to industry and the public.

Inspectors General were not expected to respond to this question.

Question A.2	   Identify and describe as necessary the total number of programs and systems in the agency, the
                total number of systems and programs reviewed by the program officials, CIOs, or IGs in both
                last year’s report (FY01) and this year’s report (FY02) according to the format provided below.
                Agencies should specify whether they used the NIST self-assessment guide or an agency
                developed methodology. If the latter was used, confirm that all elements of the NIST guide
                were addressed.


                                                                            FY01              FY02
                     a. Total number of agency programs                            24                24
                     b. Total number of agency systems                            189
                     c. Total number of programs reviewed                          24                24
                     d. Total number of systems reviewed                          189

The Environmental Protection Agency (EPA) had not finalized its list of agency systems for FY02 by the
end of our fieldwork. At that time, program and regional offices had been sent a list of systems for which
they were responsible. The Agency planned to finalize the actual list of reportable systems for FY02 by
the end of August 2002, after all programs and regions had submitted their assessments and/or
documentation. Managers were asked to either perform an assessment on the systems or provide
documentation as to why the systems should not be reported under the Government Information Security
Reform Act (GISRA).

The Agency deployed a web-enabled self-assessment tool that incorporates National Institute for
Standards and Technology (NIST) Self-Assessment, Special Publication 800-26. This tool was the basis
for performing system assessments for FY02. EPA’s Office of Environmental Information (OEI) stated
it would perform a quality assurance review to determine the reasonableness and logic of the responses
received.




                                                                                        Report No. 2002-S-00017
Question A.3    Identify all material weakness in policies, procedures, or practices as identified and required to
                be reported under existing law. Identify the number of reported material weaknesses for FY01
                and FY02, and the number of repeat weaknesses in FY02.
For FY01, the Agency reported Information Systems Security as a material weakness under the Federal
Managers’ Financial Integrity Act. In FY02, the OIG is recommending that Information Systems Security
be downgraded to an agency-level weakness due to the considerable progress EPA made in implementing
its computer security program. There were no repeat weaknesses involving security issues.

Question B.1    Identify and describe any specific steps taken by the agency head to clearly and unambiguously
                set forth the Security Act’s responsibilities and authorities for the agency CIO and program
                officials. Specifically how are such steps implemented and enforced? Can a major operating
                component of the agency make an IT investment decision without review by and concurrence of
                the agency CIO?

EPA’s Administrator took steps to set forth the Security Act's responsibilities, as well as authorities for
the Agency’s Chief Information Officer (CIO) and program officials. For example, in December 2001,
EPA issued a revised Delegations Manual identifying CIO responsibilities and authority. As Chair of the
Quality Information Council, the CIO actively participated during strategic management activities and
operational planning efforts In addition, the CIO advised EPA's Administrator, via the advisement letter
and Capital Planning and Investment Control (CPIC) proposals, on information resource implications of
strategic planning decisions and on the design, development, and implementation of information resources.


In June 2002, the CIO redelegated the following responsibilities to various OEI Directors:

    •	 serve as Chair of the Agency's Data Integrity Collection Board;
    •	 establish policies and procedures for the management and security of records, files and data;
    •	 establish and maintain a continuing program for the management and security of records data and
       files;
    •	 establish policies and procedures for the management and security of information systems and
       technology;
    •	 approve the acquisition of information technology (IT) resources; and
    •	 establish and maintain a continuing program for the management and security of information
       systems and technology.

Also, the CIO monitors compliance with policies, procedures, and guidance through the annual
assessment, which provides an update on the status of the Agency's security program. The annual
assessment is reported to the Office of Management and Budget (OMB) each September. As a follow-
on activity to this annual assessment, the Agency identifies where improvements in the security program
can be made, develops detailed plans of action and milestones to implement these improvements, and
reports progress to OMB on a quarterly basis.

As long as EPA strictly adheres to its CPIC policy, a major operating component of the agency cannot
make a major IT investment decision without review by and concurrence of the Agency's CIO. In May
2002, EPA issued an interim policy that outlined the approval policy for IT investments. By June 2002,

                                                        2	                             Report No. 2002-S-00017
management superceded the interim policy with a final IT CPIC policy under EPA Order 2100.2A1. The
Order established the policy for assuring that IT resources are invested and managed to achieve high value
outcomes at acceptable costs. The policy requires EPA Offices to submit proposals for IT investment(s)
to the CIO. If approved, these investments will be funded from the submitting Office’s budget. The CIO,
in conjunction with the Chief Financial Officer, Senior Procurement Executive, and senior program officials
on the IT Investment Board, selects those investments recommended for funding in the Agency’s budget.
After the selection process is completed, the CIO sends an advisement letter to the Administrator that lists
the approved IT investments. The advisement letter also summarizes the number of total IT investment
proposals reviewed, the number recommended for funding, and the number of proposals withdrawn from
consideration. We found that the approved investment proposals submitted to OMB in November 2001
were the same ones approved by the CIO in her September 2001 advisement memorandum. The OIG
believes additional improvements can be made to EPA’s CPIC and IT procurement processes and will
issue findings in a report entitled EPA’s Management of Information Technology Resources Under the
Clinger-Cohen Act.

Question B.2    How does the head of the agency ensure that the agency’s information security plan is practiced
                throughout the life cycle of each agency system? During the reporting period, did the agency
                head take any specific and direct actions to oversee the performance of 1) agency program
                officials and 2) the CIO to verify that such officials are ensuring that security plans are up-to­
                date and practiced throughout the lifecycle of each system?

The Agency head delegated to the CIO the responsibility of establishing and maintaining a continuing
program for the management and security of records, files, data, and information systems and technology.
In June 2002, the CIO redelegated the task of ensuring system security plans are up-to-date and practiced
throughout the life cycle of each system to OEI’s Director for Technology Operations and Planning
(OTOP).

EPA’s current Life Cycle Management policy is outdated. In EPA’s 2001 GISRA Report, OEI indicated
it would be updating the life cycle policies and guidance. The updating of such policies is not complete.
However, OEI indicated that it has a process underway to identify those IT policies needing to be created,
updated, or canceled in order to address gaps between what EPA’s current IT policy collection is and
what it should be from a best practices perspective. OEI expects to issue a multi-year plan for addressing
the gaps and updating EPA’s IT policy by November 2002.

The Agency has not developed a dedicated process for ensuring that security plans of general support
systems and major applications are up-to-date and practiced throughout the life cycle of the system EPA
currently ensures the existence of many, but not all, security plans through the CPIC, the National
Technology Services Division’s (NTSD) Application Deployment Process, and a Security Plan
Independent Review Process. However, CPIC process reviews are limited to “Major Agency Systems,”
and NTSD’s Application Deployment Process is limited to “Major Agency Systems” or applications that
contain data defined as having a “high” sensitivity level. Additionally, OEI indicated that the Security Plan
Independent Review Process includes “completeness” reviews of security plans submitted with CPIC
proposals, as well as a comprehensive review and testing of four system security plans which OEI expects
to complete next fiscal year. At this time, the Agency does not verify the existence of security plans for
those systems and applications that do not fall into these categories. In addition, and in

                                                       3                               Report No. 2002-S-00017
 response to GISRA, EPA now requires all programs to perform assessments in accordance with NIST
Special Publication 800-26. OEI management will compile and report the results of these assessments in
the Agency’s GISRA report to OMB.

Question B.3	   How has the agency integrated its information and information technology security program
                with its critical infrastructure protection responsibilities, and other security programs (e.g.,
                continuity of operations, and physical and operational security)? (Sections 3534 (a)(1)(B) and
                (b)(1) of the Security Act.) Does the agency have separate staffs devoted to other security
                programs, are such programs under the authority of different agency officials, if so what specific
                efforts have been taken by the agency head or other officials to eliminate unnecessary
                duplication of overhead costs and ensure that policies and procedures are consistent and
                complimentary across the various programs and disciplines?

The Agency is beginning to integrate its information and IT security program with its critical infrastructure
protection responsibilities. In EPA’s Critical Infrastructure Protection Mitigation Plan, dated September
21, 2001, the responsibilities for assessing and addressing vulnerabilities are aligned with each office’s
overall mission. The plan states that within EPA, the overall infrastructure assurance responsibilities are
shared by the Office of Administration and Resources Management (OARM), the Office of Solid Waste
and Emergency Response (OSWER), and the Office of Water (OW). Specifically, OARM maintains
responsibility for the Agency’s physical and cyber infrastructure protection functions, while OSWER has
emergency and remedial response obligations. OW is responsible for developing a water supply sector
Critical Infrastructure Assurance Plan, and collaborating and coordinating efforts between the Federal
government and the private sector. In addition, the CIO is responsible for the development and execution
of the information-related elements of OEI’s Mitigation Plan.

Other on-going reviews should also bring to light the effectiveness of EPA’s actions thus far. For
example, the OIG is currently evaluating EPA’s implementation activities for protecting its critical, cyber-
based infrastructure, under a review sponsored by the President’s Council on Integrity and Efficiency
regarding President Decision Directive (PDD) 63. Also, GAO is reviewing EPA’s progress in protecting
its critical cyber-based and physical infrastructures.

EPA does have separate staffs devoted to other security programs and these programs are under the
authority of different Agency officials, as indicated by the Critical Infrastructure Protection Mitigation
Plan. Based on the descriptions of the assigned responsibilities, the responsibilities do not appear to overlap
or cause duplication of effort. Only one responsibility is shared by two offices - “Working with Human
Resources to ensure requirement skills to support infrastructure protection program.” The Agency
assigned the Assistant Administrators for OARM and OSWER this responsibility, and we believe it
represents a shared responsibility rather than a duplication of effort.

Question B.4	   Has the agency undergone a Project Matrix review? If so, describe the steps the agency has
                taken as a result of the review. If no, describe how the agency identifies its critical operations
                and assets, their interdependencies and interrelationships, and how they secure those operations
                and assets.

The Agency has essentially concluded step one of the three-step Project Matrix process by developing a
draft report identifying the Agency’s critical assets under PDD 63. However, before the Project Matrix
Step One Report can be finalized, it must undergo a quality assurance process to ensure that senior
                                                       4	                              Report No. 2002-S-00017
 executives agree with the findings. Once finalized, the Agency needs to complete vulnerability
assessments and risk mitigation plans for its cyber-based assets. In addition, step two of the process needs
to be officially authorized and implemented.

Question B.5    How does the agency head ensure that the agency, including all components, has documented
                procedures for reporting security incidents and sharing information regarding common
                vulnerabilities? Identify and describe the procedures for external reporting to law enforcement
                authorities and to the General Services Administration’s Federal Computer Incident Response
                Center (FedCIRC).

The Agency Head delegated to the CIO the responsibility for ensuring that EPA-documented procedures
for reporting security incidents and shared information regarding common vulnerabilities exist. The CIO, in
turn, delegated this responsibility to OEI’s Director for Technology, Operations and Planning in June 2002.

EPA Directive 200.06, Computer Security Incident Response, dated January 31, 1996, is the Agency’s
official incident handling procedures document. In FY01, OEI indicated they were updating the Directive.
Management subsequently decided to out-source the Incident Handling Program function. Due to this
decision, they have given no date as to if and when they will revise Directive 200.06. OEI’s Technical
Information Security Staff (TISS) have been assigned the lead in developing the Incident Handling
requirements that will be included in the OTOP contract.

EPA’s Procedures for sharing information regarding common vulnerabilities within the agency are as
follows:

    1.	 TISS receives a FedCIRC and Computer Emergency Response Team Advisory and sends it to a
        supporting contractor.
    2.	 Contractor performs analysis of the scope and impact of the advisory.
    3.	 Contractor returns the advisory to TISS, and TISS distributes to manager of affected platform.
    4.	 The platform manager distributes the advisory to the appropriate operational division for remedy.
    5.	 The operational division reports back to TISS, confirming that the remedy has been taken.

The CIO does not directly report incidents to external law enforcement agencies. Instead, incidents with
criminal ramifications are reported to the OIG’s Computer Crimes Directorate (CCD). The CCD reports
such incidents to external law enforcement authorities as they deem appropriate.

Although FedCIRC recommends real-time reporting, it has not promulgated any formal procedures for
reporting security incidents. In the absence of specific criteria, TISS prepared and submitted an incident
handling digest using data provided by EPA’s NTSD. EPA discontinued submitting this digest at the end
of September 2001, due to the lack of specific reporting requirements. As of July 2002, EPA resumed
sharing a more condensed incident handling digest with FedCIRC.

Question C.1    Have agency program officials: 1) assessed the risk to operations and assets under their control;
                2) determined the level of security appropriate to protect such operations and assets;
                3) maintained an up-to-date security plan (that is practiced throughout the life cycle) for each
                system supporting the operations and assets under their control; and 4) tested and evaluated
                security controls and techniques?


                                                       5	                             Report No. 2002-S-00017
A survey of EPA’s program offices disclosed that only 80% of offices had completed risk assessments for
all assets and operations under their control. Likewise, only 80% of EPA’s program offices are either in
the process of conducting or have completed testing and evaluating controls identified in the risk
assessments. In our opinion, the 20% difference represents assets and systems that EPA did not label as
“major applications” or “general support systems” for GISRA reporting purposes. These applications
operate on the Agency’s network and pose inherent security risks. As such, they should undergo risk
evaluation, whether conducted by OEI or the responsible program office.

Program offices indicated they determined the level of security appropriate to protect operations and
assets. However, as stated above, not all IT systems had undergone risk assessments or had approved
security plans in place. We believe it is unlikely that adequate levels of security can be selected until the
risk assessments are completed. As a result, major IT systems could be placed into operation without an
adequate level of security and could be prone to operational manipulation due to inadequately designed
internal controls. Representatives from OEI indicated that they instituted the NIST Self-Assessment tool
for the fiscal 2002 review cycle, and that all program offices were to have completed the evaluation by
July 2002. OEI plans to capture weaknesses from these risk assessments, incorporate them in a Plan of
Actions & Milestones (POA&M), and track the milestones. Agency officials believe this approach will
give them more reliable data on risk assessments.

Additionally, our fieldwork disclosed that EPA needs to do more to bring its system security plans into
compliance with NIST requirements. We reviewed key data elements in EPA security plans and found
that 21% of them were not comprehensively addressed to meet the standards set forth in NIST Publication
800-18, Guide for Developing Security Plans for Information Technology Systems. For example,
some Security Plans did not:

    •   document the risk assessment methodology used to identify threats and vulnerabilities,
    •   document security activities required for its current phase, or
    •   describe contingency plan procedures.

This happened because EPA's security plan guidance predates revisions to NIST guidance and OMB
A-130, Appendix III, which clearly describe and organize basic security plan requirements.

Question C.2     For operations and assets under their control, have agency program officials used appropriate
                 methods (e.g., audits or inspections) to ensure that contractor provided services (e.g., network or
                 website operations) or services provided by another agency for their program and systems are
                 adequately secure and meet the requirements of the Security Act, OMB policy and NIST
                 guidance, national security policy, and agency policy?

As of July 22, 2002, except for the Toxic Substances Control Act (TSCA) program, we had not identified
any audits or inspections accomplished by Agency program officials to ensure that contractor-provided
services or services provided by another agency for their program and systems were adequately secure
and met regulatory requirements.

The TSCA program regularly audits/inspects contractors to verify that security standards are enforced.
However, officials from EPA’s Office for Prevention, Pesticides, and Toxic Substances stated that TSCA


                                                         6                               Report No. 2002-S-00017
is unique in that a law suit and court order require them to enforce security standards deemed by many to
be more stringent than necessary.

Question D.1(1)       Has the agency CIO adequately maintained an agency-wide security program?

While the agency has more work to do in this key area, they have issued or updated several security-
related policies and procedures this fiscal year and plan to complete additional ones next year. We view
policies and procedures as a critical element to maintaining an agency-wide security program that is:

     •	   compliant with Federal regulations and standards, and industry best practices, and
     •	   implemented consistently throughout all parts of the organization

As such, in responding to this question, we focused on the Agency’s efforts to issue or update security-
related policies and procedures. The Agency identified the following security-related policies and
procedures that the CIO (through EPA’s Office of Environmental Information) has issued or will issue in
fiscal 2002 to adequately maintain agency wide security.

Completed in FY 02:
•	 LAN Operating Procedures (LOPS) 2002.

•	   Network and Infrastructure Procedures – new and revised procedures, along with links to the
     documents (described in deployment papers), for the Network can be found on the Network
     Infrastructure Services Support Web Page.

•	   EPA Order 2100.2A1, entitled Information Technology Capital Planning and Investment Control,
     dated 6/17/02. It revised an interim Order issued one month earlier.

•	   Standard Configuration Documents (SCDs) for the following Operating Systems:
         T Sun Solaris 8.0
         T RedHat LINUX 7.1
         T Tru64 5.1

We found that all of the security-related policies and procedures identified as completed this fiscal year
existed and were issued or updated as management indicated. In addition, with the exception of the
Network and Infrastructure Procedures, we found that all of the security-related policies and procedures
identified as completed this fiscal year were directly related to security.

With regard to the Network and Infrastructure procedures, we found that the Network Infrastructure
Services Support Page does not differentiate whether the reason behind a service pack deployment is to
correct a security shortcoming or to add other, non-security-related enhancements. This site provides a
link to the LOPS, as well as to various deployment papers and service packs for software used by EPA,
such as Corel Word Perfect, Lotus Smart Suite, Netware, Norton Anti-Virus, Windows, etc. The site
includes a brief description and link to recent deployment papers, but these summaries do not specify
whether a security shortcoming is the purpose for the specific upgrades or service packs described.


                                                       7	                           Report No. 2002-S-00017
Currently Being Revised or Developed:
SCDs for the following Operating Systems are still in progress:
   T	 Sun Solaris 9.0
   T	 RedHat LINUX 7.2 & 7.3
   T	 Beowulf (LINUX) SCYLD
   T	 AIX 5L
The following policies and procedures are also under development:
   T	 Personal Use Policy
   T	 Systems Life Cycle
   T	 Personal Digital Assistants
   T	 Background Checks for Visitors
   T	 Updated Standards of Behavior

We were able to verify that all but one of the SCDs identified above were included on the SCD web page
as “under development & review.” As of July 18, 2002, the only SCD not listed was the one for Beowulf
(LINUX) SCYLD. The web page was last updated June 17, 2002. We could not verify the status of
policies and procedures under development, as no web references or draft documentation were provided.


Question D.1 (2)	    Has the agency CIO ensured the effective implementation of the program and evaluated the
                     performance of major agency components?

OEI is beginning to establish some security oversight for EPA’s complex information systems network.
For several years, in conjunction with the Federal Managers’ Financial Integrity Act, the OIG has formally
advised EPA to centralize its security program and establish strong oversight processes to adequately
address risks and ensure the security of its information resources and environmental data. We found that
OEI is performing some quality assurance and oversight activities to help ensure the effective
implementation of the security program and to evaluate the performance of major agency components.
However, we believe the Agency needs to focus more on independent verification, validation, and
enforcement of the implementation of its security program.

OEI has accomplished very few oversight activities that independently verify and validate the
implementation of the security program thus far this fiscal year. Three of the four FY02 oversight
activities completed, as of July 30, 2002, were desk reviews of activities performed or information provided
by program and regional offices. The three oversight activities were:

    •	   performing completeness reviews of security plans for all CPIC systems.
    •	   reviewing answers to security questions in CPIC systems and providing feedback on each

         submission as well as recommendations for improving responses.

    •	   reviewing corrective action milestones submitted by program offices and regions to ensure they
         adequately addressed the identified weaknesses.

The fourth oversight activity focused on independent verification and validation. This activity was the
monthly scan of UNIX and NT servers at the National Computer Center. Although OEI had completed
very few oversight activities of this type by the end of our field work, they had identified five oversight
activities which they are phasing in or planning to complete between July 30, 2002 and the end of FY03:

                                                      8	                            Report No. 2002-S-00017
•	   Testing a sample of EPA’s Unix Servers . OEI expects to issue a draft report by September 27,
     2002, but has not indicated when the final report will be completed.

•	   External Penetration Testing of Network. Testing includes scans from external sites and war
     dialing. The draft report was issued on July 19, 2002. OEI did not include any planned date for the
     completion of the final report.

•	   Quarterly Reports on Netware Servers. Quarterly scans of attached servers determine their
     individual compliance with OEI-developed standards. OEI will issue quarterly status reports (score
     cards) to Assistant Administrators (AA) and Regional Administrators (RA). OEI is currently phasing-
     in this process to allow program and regional offices to get acclimated to the process and to provide a
     larger window for achieving full compliance.

     The Agency is already seeing improvement in its compliance with the OEI-developed standards for
     Netware servers. We compared OEI’s summary of EPA’s weighted and curved compliance rates in
     January/February 2002 to the rates achieved in May/June 2002, and found that the Agency showed
     improvement in meeting Netware Server Standards. OEI applied several interim conditions while it
     phased in the quarterly reporting process:
     •	 added reports to monitor standards not previously monitored.
     •	 weighted the percentage of compliance for new reports at half the weight of ongoing reports,
         thereby allowing offices to become acclimated to the process. 1
     •	 graded on a curve to allow offices more leeway to work on bringing systems into compliance. For
         example, OEI counted a server as being compliant regarding system audit logs if it logged at least
         40% of the events required in the OEI-developed standards.
     •	 only ran Bindview reports against approximately 95% of its Netware servers, and did not reconcile
         the list of servers against which they ran Bindview to the list of all of the Netware servers in the
         Agency’s Novell Directory Services Tree. 2

•	   Quarterly Scan of NT Servers. In October 2002, OEI plans to begin performing a quarterly scan of
     all attached NT servers to determine compliance with OEI-developed standards.

•	   Comprehensive Review and Testing of Four System Security Plans. OEI plans to complete this
     activity next fiscal year.

Concerns regarding Oversight Reviews : To improve feedback received through its oversight
processes, we believe the Agency needs to set higher criteria for contractor-performed evaluations. For
example, OEI hired a contractor to perform the Completeness Review of Security Plans for all the CPIC
systems. OEI asked the contractor to perform the review based solely on the Agency’s Information
Security Planning Guidance (ISPG), dated June 17, 1997. OEI did not require the contractor to use


         1
             Starting in August 2002, OEI stated it stopped weighting the compliance percentage.
         2
             Since conclusion of audit field work, OEI stated it will run Bindview reports against all
             resources identified in the tree.

                                                       9	                            Report No. 2002-S-00017
current Federal regulations, standards, and industry best practices as criteria. As such, the contractor’s
findings would not provide a completely accurate picture of the Agency’s compliance with Federal
requirements. As the contractor pointed out in their recommendations to the Agency, the ISPG needs to
be brought into compliance with NIST.
We compared the OEI-developed Netware Standards: Netware Security Checklist to the latest LOPs
(2002 version) and found that the LOPs does not contain all OEI-developed standards. OEI states that
other Agency documents augment the LOPs, but we did not find evidence to support that all standards
were formalized requirements within other approved Agency policies, directives, or orders. As such,
regional and program offices are not required to conform their Netware security settings, even if future
quality assurance reviews were to identify specific shortcomings.

    Suggestions for Improvement: OEI should:
       (1)	 ensure that both in-house and contractor-performed reviews determine compliance using the
             following criteria:
             • current Federal regulations and standards,
             • industry best practices, and
             • additional requirements that EPA has instituted.
       (2)	 formally establish OEI-developed Netware Standards as official standards.

Quality Reviews for Risk-Based Performance Measures: OEI is currently developing risk-based
performance measures that focus on outcomes rather than outputs. OEI provided a draft framework
which they plan to use; however, it was still in the vision stage and did not contain specific details.
Therefore, we did not have enough information to express an opinion on EPA’s intended performance
measures.

Our review, however, disclosed one concern regarding the process itself. In our opinion, EPA’s process
relies heavily on self-assessments and self-certifications, rather than on independent verification and
validation. We believe that for the process to be successful in accurately measuring performance, it must
include these additional components. Although such aspects were not part of the draft framework, OEI
stated that it will apply some sort of quality assurance component. However, due to limited resources, OEI
stated that it only will be able to verify a small portion of what it receives. OEI plans to accomplish its
quality assurance plan in FY03.

Question D.1 (3)	   Has the agency CIO ensured the training of agency employees with significant security
                    responsibilities?

The Agency cannot be assured that personnel with significant security responsibilities are sufficiently
trained because management has not yet identified which EPA employees have such responsibilities.
Once these personnel have been identified, EPA needs to assess security training needs based on assigned
responsibilities. We noted that OEI does not track how many EPA employees receive specialized security
training; program offices are expected to obtain and track this data.

The Agency provided web-based security awareness training to all EPA employees in August 2001.
Although the Agency can track which employees have completed this training, OEI officials could not



                                                     10	                            Report No. 2002-S-00017
 verify to us that all EPA employees have taken the training. At this point, EPA does not have
standardized procedures to ensure that new employees receive security awareness training.

OEI has plans for several security training initiatives. For example, OEI has a subscription with the
Department of Transportation’s Virtual University (TVU) to a library of IT security-related courses. Per
OEI, these courses are aligned with NIST Special Publication 800-16. Approximately 50 EPA employees
have begun taking these courses. For the balance of the calendar year, OEI plans to deploy: (1) the 2002
version of Information Security Awareness Training for all employees, (2) IT training sessions for
executives and managers, and (3) security training (focused on NIST 800-16 requirements) for Information
Security Officers (ISOs) through the TVU and the IRM College of the National Defense University.
Also, in August 2002, OEI provided security training to ISOs during the annual ISO Forum.

    Suggestion for Improvement:
    To establish a robust and effective security training program, OEI should:
     •	 identify personnel with significant security responsibilities, and
     •	 assess security training needs for those personnel.

Question D.2     For operations and assets under their control (e.g., network operations), has the agency CIO
                 used appropriate methods (e.g., audits or inspections) to ensure that contractor provided services
                 (e.g., network or website operations) or services provided by another agency are adequately
                 secure and meet the requirements of the Security Act, OMB policy and NIST guidance, national
                 security policy, and agency policy?

The CIO has responsibility for a variety of contract services which support the Agency’s enterprise
network operations, network security, and systems development activities:

    •	   National Computer Center (NCC),
    •	   National Wide Area Network,
    •	   Headquarters Local Area Network,
    •	   TRI Reporting Center,
    •	   Systems Development Center, and
    •	   Central Data Exchange.

During fiscal 2002, the CIO took the following actions to ensure contractor-provided services were
adequately secured and met the requirements of the Security Act:

    •	   conducted modem-based penetration testing using a “war-dialer” technique at two key EPA
         locations: EPA Headquarters and the NCC;
    •	   conducted Internet-based penetration testing against network assets located at the NCC;
    •	   conducted a “completeness” review of security plans for major applications and general support
         systems identified in the CPIC proposals; and
    •	   implemented a program to regularly monitor Novell Netware security settings and provide

         feedback to responsible EPA officials.


In our opinion, the CIO’s actions seem appropriate for ensuring contractor services comply with the
Security Act. However, at the end of field work, the penetration testing results were not finalized, so we

                                                       11	                              Report No. 2002-S-00017
could not review OEI’s POA&M associated with identified weaknesses. In our opinion, the CIO must
work to finalize these results, and establish and monitor POA&Ms for identified weaknesses. Additionally,
the CIO should develop and implement strategies to address concerns regarding oversight reviews
identified in section D1.(2).

Question D.3     Has the agency CIO fully integrated security into the agency’s capital planning and investment
                 control process? Were security requirements and costs reported on every FY03 capital asset
                 plan (as well as in the exhibit 53) submitted by the agency to OMB? If no, why not?

The Agency has not fully integrated security into the Agency’s CPIC process. Although EPA has made
significant improvements, weaknesses remain in the areas of policy guidance, quality assurance, and
systems inventory.

    •	   EPA’s recently-enacted CPIC policy does not reference existing Agency security requirements.
         Although EPA’s policy addresses security through a high-level reference to OMB Circular A-130,
         Information Resources Management, it does not reference existing Agency security policies. As
         it is written, the current CPIC policy does not include guidance with respect to integrating security
         into the CPIC process.

    •	   EPA reported security costs for all projects on OMB Exhibit 53; however, EPA did not report
         security requirements on every FY03 capital asset plan submitted by the Agency to OMB. Of the
         46 capital asset plans submitted to OMB, 11 (24%) lacked an approved security plan and 3 (7%)
         referenced security plans that had not been updated within the past three years. OEI explained
         that, at the time of submission, risk assessments had not been completed for the 11 proposals
         without security plans. In response to the draft report, OEI emphasized that the outstanding risk
         assessments have been completed, and stated that all 39 systems in the fiscal 2004 capital asset
         plan have security plans.

    •	   In response to an OIG draft report entitled EPA’s Management of Information Technology
         Resources Under the Clinger-Cohen Act, dated July 2, 2002, OEI indicated it will resolve the
         systems inventory issue by establishing an Information Resources Registry System that will contain
         all major and significant systems. The Agency expects to (1) complete prototype software for the
         Registry by the end of FY02, and (2) populate the database with actual data by the end of FY03.

STATUS OF GAO SECURITY RECOMMENDATIONS
We conducted follow-up work to determine EPA’s progress in implementing recommendations contained
in GAO’s report: GAO/AIMD-00-122, Information Security - Fundamental Weaknesses Place EPA
Data and Operations at Risk, dated June 2000. To date, we have reviewed 31 recommendations relating
to the Unix Operating System and all 13 recommendations regarding Novell systems.

Status of Unix Recommendations :
During this review cycle, we evaluated 31 GAO recommendations related to Unix. We met with agency
officials, analyzed system configuration files, and reviewed applicable network management polices and


                                                      12	                             Report No. 2002-S-00017
procedures. Additionally, we selected a sample of servers critical to EPA’s top-level architecture (i.e.,
Firewall, Intrusion Detection System, Domain Name Service, and Network Management Servers) and
conducted limited confirmation testing using readily available network assessment tools.

In our opinion, EPA has taken appropriate steps to implement the GAO Unix recommendations. Based on
system file reviews and confirmation tests, we found:

    •	   servers were properly configured according to the vendor’s instructions and GAO's

         recommendations.

    •	   no security holes.

GAO recommendation number 71 required EPA to improve its incident handling practices. We found that
EPA has made improvements in its incident handling practices, although we did not assess the efficiency
and effectiveness of those practices. For example, EPA established sufficient policies to provide the
overall direction for the incident handling program, and its ISOs have an understanding of their duties for
reporting security incidents.

Status of Novell Recommendations :
As part of the 2001 GISRA review, we reviewed three of the 13 Novell (i.e., Netware) recommendations
from GAO. These recommendations were fully implemented. During our 2002 GISRA review, we
evaluated the status of the 10 remaining Novell recommendations. We reviewed a judgmental sample of
EPA’s regional and program offices to determine if management implemented GAO’s recommendations
or, at least, planned to establish compensating controls.

We used Bindview reports generated by OEI to assess the Agency’s compliance with 6 of the 10 GAO
recommendations. EPA uses Bindview reports in support of their overall network security program and
these reports depict compliancy profiles with the majority of the OEI-developed Netware security
standards, as well as most of GAO’s recommendations. At that point in time, compliance was still being
graded on a curve, as explained in our response to Question D.1(2) above.

In May 2002, OEI officials conducted assessments of the Agency’s program and regional offices’
compliance with OEI-developed Netware Security Standards. OEI concluded program and regional
offices were 85.4% complaint with prescribed standards. We further analyzed these results for three
program offices and three regional offices having the lowest compliance rates with the OEI-developed
Netware standards. We limited our review to compliance with GAO recommendations and used the
Bindview reports directly related to these recommendations. Our review indicated the six offices reached
a compliance rate of 78.5% 3 with GAO recommendations. OEI officials stated that any non-compliance
by an individual office reflected on that particular office and should not be used to judge the merit of OEI’s
implementation program.


         3
          For GAO recommendation 95, the percentage represents the compliance rate associated with
         the AuditCon feature enable for applicable servers, containers, and volumes, but does not
         represent compliance with logging of GAO recommended auditing events.



                                                     13	                            Report No. 2002-S-00017
For the four recommendations where EPA chose not to implement GAO’s recommendations, the Agency
indicated they have established or planned to establish compensating controls to mitigate the associated
risks. We did not test the adequacy of these controls or individual implementation plans.

EPA has improved network security among the regions and program offices by providing OEI-developed
Netware standards and by monitoring most of these standards. OEI’s standards for Netware include the
majority of GAO's Novell recommendations. However, as discussed in our response to question D.1(2),
these standards have not been formalized as an Agency requirement. The Agency’s assessment of
compliance with these standards, as captured in January/February 2002 and in May/June 2002, shows an
increased overall compliance.

Suggestions for Improvement: OEI should:
   •	 formalize standards into Agency policy and procedures, and assign accountability and identify
       consequences for non-compliance.
   •	 perform follow-up monitoring for program and regional offices with poor compliance rates to
       ensure their respective management take corrective action within 30 days of notification. For
       substantive problems, planned corrective actions should be formalized under OEI’s POA&M.

PLAN OF ACTION AND MILESTONES
To facilitate creation of the Agency plan of action, OEI’s TISS prepared a standard approach for
identifying, compiling, and tracking corrective actions. As a first step, TISS compiled a list of weaknesses
for each Region and Program from the following sources:

    •	   FY01 annual assessments,
    •	   risk assessments completed during last 18 months,
    •	   independent testing conducted on EPA’s network-attached resources, and
    •	   security plan reviews conducted last fiscal year.

TISS aggregated the list of detailed weaknesses into approximately 12 broad categories and developed
standardized work plans for each category. Each EPA program and region was asked to: (1) verify the
list of weaknesses; (2) add any additional weaknesses; (3) identify weaknesses already corrected; and (4)
fill in dates for completing milestones of weaknesses not yet corrected. AA/RA’s were asked to sign off
on their respective Action Plan and submit it to the CIO with an electronic copy to TISS.

TISS captured the Agency’s POA&Ms in a central project management database. TISS established a
project management infrastructure that will assist the Agency in consolidating the individual POA&Ms into
a comprehensive Agency action plan. A contractor, under TISS’s direction, maintains a central database
with all the work plans. TISS was requiring monthly updates from each program and regional office, but
switched to quarterly updates after July 2002, to be consistent with OMB's schedule.

OMB requested that IGs verify that agency POA&Ms identify all known security weaknesses. As such,
we randomly selected a contractor-performed review to verify that the weaknesses identified were
included in the Agency’s POA&M. We found that the Agency had not included the weaknesses identified
in this review.


                                                     14	                           Report No. 2002-S-00017
Suggestions for Improvement:
We believe that the collection and maintenance process needs to be modified to ensure that:

    •	   all known weaknesses associated with any reviews performed by, for, or on behalf of the Agency
         are included.
    •	   all known weaknesses, whether they are associated with a component of the Agency or the
         Agency as a whole, are included.

In addition, we believe that the process needs to include quality assurance/oversight to ensure that the
corrective actions reported as completed are effective. We also believe that the Agency needs additional
full-time staff with backgrounds in IT Security to adequately oversee the maintenance, monitoring, and
oversight of the Agency’s POA&Ms.




                                                   15	                           Report No. 2002-S-00017
